C@OCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com.
Fax: (402) 342-4850

No. 19-743

CURTIS T. HILL, JR., Attorney General of the State of
Indiana, in his official capacity, KRISTINA BOX, M.D.,
Commissioner of the Indiana State Department of Health,

in her official capacity; JOHN STROBEL, M.D.,
President of the Medical Licensing Board of Indiana,
in his official capacity; and KENNETH P. COTTER,
St. Joseph County Prosecutor, in his official capacity,

Petitioners,
ve
WHOLE WOMAN’S HEALTH ALLIANCE;
ALL-OPTIONS, INC.; and JEFFREY GLAZER, M.D.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8971 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 20th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary
State of Nebraska ? Lob Qudeaw-K.
My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39395
